No.

-5043
IN THE
SUPREME COURT OF THE UNITED STATES

— PETITIONER
(Your Name)

vs.

dtac;

— RESPONDENT^

ON PETITION FOR A WRIT OF CERTIORARI TO

FILED
JUN 2 5 2020
SUPREMFFr%nRTLMQK

UftiW SiA-bed CoUiYtoZ
(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

TfrpiVi Ri^K(Your Name)

4#77 £YY\w-bor\ qA
(Address)

f'oliAjr\fxL$ . ott
(City, State, Zip Code)

(Phone Number)

*

QUESTION(S) PRESENTED
In the United State, there are no institution or no law to correct the illegal act by the Security
Clearance?
This case is simply only a matter of language problem, either the Supervisor 'English is not good
or Plaintiff English is not good. He fired her only did not write down China as foreign country.
The plaintiff was bom in China. U.S. law stipulates that if a baby is bom in the U.S, who is a
U.S. citizen. She homed in China, how can you say that China is foreign country to her?
And she diligently worked for the DFAS more than six years, and she every year got reward and
she did not do any mistake take and she has two degrees, and she is a recognized permanent
employee. After he fired her than tell her that he do not fire her ask her to quit her job by her self,
she did not quit her job, becouse she did not do any thing wrong.
Plaintiff love America and she believes that America will give her the reasonable judgment
in her case. God Bless America.

LIST OF PARITIES
( ) All parties appear in the caption of the case on the cover page.
( ) All parties do not appear in the caption of the case on the cover page. A list of
all partied to the proceeding in the court whose judgment is the subject of this
petition is as follows:
Petitioner Jiping Rizk
Respondent Defense of Finance and Accounting Servise
Rizk V DFAS: No 2:16-cv-01077-ALM-LAJ
U.S District Court for the Southern District of Ohio (Columbus)
Judgment entered November 10, 2016
Rizk V DFAS: No 2:18-cv-00575-ALM-KAJ
U.S District Court for the Southern District of Ohio (Columbus)
Judgment entered June 11,2018
Rizk V DFAS: No 19-1110
United States Court of Appeals
Judgment entered November 13, 2019

RELATED CASES

TABLE OF CONTENTS
OPINIONS BELOW

1

JURISDICTION

c3.

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

3

STATEMENT OF THE CASE

4-

REASONS FOR GRANTING THE WRIT

9

CONCLUSION

l\
INDEX TO APPENDICES

APPENDIX A Decision of Unite States District Court
APPENDIX B Decision of Unite States Court of Appele
APPENDIX C Certificate of Pastor Fr. Joven Malanyaon
APPENDIX D Certificate of Director Theresa Roach
APPENDIX E Certificate of Director Theresa Roach
APPENDIX F Certificate of Supervisor Lisa K. Wingfield
APPENDIX G Certificate of Supervisor Roberta A. Wetherbee
APPENDIX H Certificate of Dr. Eduaido V. Shea M.D
APPENDIX I

Certificate of Civilian Performance Rating

APPENDIX J The copy of the Questionnaire for public trust posions #19

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW
[ ] For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix
the petition and is

to

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the United States district court appears at Appendix
the petition and is
Sbi

to

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
[ ] For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix_____ to the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the _
appears at Appendix

court
to the petition and is

[ ] reported at____:
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
1.

T

JURISDICTION

[ ] For cases from federal courts:
The date on which the United States Court of Appeals decided my case
was [>£C_,
___ -•
[, ] No petition for rehearing was timely filed in my case.
[ ] A timely petition for rehearing was denied by the United States Court of
Appeals on the following date:___________
, and a copy of the
order denying rehearing appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including______
(date) on
(date)
in Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

[ ] For cases from state courts:
The date on which the highest state court decided my case was
A copy of that decision appears at Appendix_____
[ ] A timely petition for rehearing was thereafter denied on the following date:
~T uJ)T)d- ftj .
} and a copy of the order denying rehearing
appears at Appendix B_
[ ] An extension of time to file the petition for a writ of certiorari was granted
(date) in
(date) on
to and including____
Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

a

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

CLAIM VIOLATION OF CIVIL SERVICE REFORM ACT OF 1978
Plaintiff alleges that her employment termination did not follow proper protocol in her
termination, nor did it take into account her rights under the DFAS employee placement
program.
1. Plaintiff was a federal employee with over five years of full-time employment and was
not a probationary employee. As such, she should have only been removed for an
advanced showing of cause, not just whether or not she considered China to be a foreign
country.
2. There is not one bit of evidence in the appellate record showing that Plaintiff has
committed serious job performance issues. In fact, the record shows that Plaintiff was an
ideal employee.
3. Plaintiff should not have been let go from her employment for the reasons alleged by
Defendant. Even taking the face value of the Defendant’s reasons for termination, they
were insufficient to terminate Plaintiff. As such, her termination was improper, and in
violation of the Civil Service Reform Act of 1978.and the rights under the Due Process
Clause of the Fifth Amendment to employment and reputation (Counts III, IV, and V);
and the Fifth Amendment right to non-discrimination in employment (Count VI).

3

STATEMENT OF THE CASE
MOTION TO RECONSIDER
DFAS’S SECURITY CLEARANCE IS NOT
REASONABLE AND NOT ACCEPTABLY
The DFAS fired Plaintiff reason is only she did not answer the question that China as foreign country.
(in the Questionnaire for Public Trust Positions #19)
FACT
This case is English problem case, either the Supervisor or she do not understand English
very well. Please see the question blow.
1. Plaintiff was bom in China 1. What different between the two questions
(1) In 7 years which country you visited.
This question includes the country you bom and include whole world another country
(2) In 7 years which Foreign country you visited
This question Does Not include the country you bom and only include whole
world another country and China is not foreign country for Plaintiff, she had not listed her trip to
China, since she did not deem China to be a foreign country.
2.. When Plaintiff file up the question Plaintiff was very carefully and Plaintiff did not want to make
a Mistake and Plaintiff want to answer the question properly. So for the question Plaintiff went to
Church asked Pastor Fr. Joven Malanyaon. Fr. Joven Malanyaon was laughing Plaintiff. Fr. said that
you bom in China, how China is your foreign country? (Please see Fr. wrote document) and now
Plaintiff went to many party and communication place and asked people the same question, they all
say that the foreign country is not include the country where you bom.
3. In 7 years she back to China only one time and she was in college, just for release, because the
English is to hard for her to study, when Plaintiff went to China, she used was America Passport.
Every one knows that America passport is open to every one. Special is open to America Government.
NO one can hide. She never think hiding any thing to America. She want to open her heart to an
America, because she loves America. Why she afraid to tell people and hid it that is her bom country?

4-

Plaintiff do not afraid to tell anyone that she visit the country where she bom. NO, she do not afraid
to tell anyone. When she visit China she always bring many gift for people, to show people that she
visited her country and thanks people who helped her. If she visit America, does she afraid to tell
people? NO, she do not afraid to tell any one.
4. Plaintiff copied America passport and Chinese passport two times (one page by one page) sent to
the DFAS and DFAS’ police copied the two passport one page by one page and sent to the DFAS too.
5. In 7 years Plaintiff visited English and France. She wrote down that and she only visited China
One time in 2003 when she was in college. She was too tired for study at the college due to her
English. She went to China for relax.
6. Plaintiff diligently worked for DFAS more than six years, and she every year got reward
and she did not do any mistake take and she has two degrees, when her security clearance was
suddenly an issue.
7. Plaintiff was informed that the primary reason for this was based on her questionnaire/application
for security clearance, which she had filled out over five years before.
8. Plaintiff’s application asked her to list foreign countries she had visited. Because Plaintiff was
from China, upon the advice of multiple advisers, she had not listed her trip to China, since she did
not deem China to be a foreign country.
9. Plaintiff had not sought to conceal anything. In fact, she had turned over her American and Chinese
passports, which showed all travel over the time period in question.
10. Plaintiff sought the advice of multiple counselors as to whether or not to list China as a foreign
country on the questionnaire, including her church leadership. She was continually informed, time
and time again, that the government already knew of her connection to China, and that as such China
would not be a foreign country as to her. Not a single adviser advised to list China as a foreign
country.

f

11. Plaintiff’s trip to China had been taken during the 7 years prior time period, and was shown on
her passport. But due to the fact that, to her, China was not a foreign country, Plaintiff did not list her
trip to China. Plaintiff sought an accurate disclosure on the questionnaire.
12. There was no intent to defraud the government when Plaintiff filled out her questionnaire for her
employment.
13. Even if the trip to China would have been listed, Plaintiff would have initially received her security
clearance.
14. Even if the trip to China had been listed, Plaintiff would still have been an excellent employee.
15. Even if the trip to China had been listed, Plaintiff would still have eventually become a non­
probationary employee of DFAS.
16. More then six years had gone by between the filling out of the application, and the sudden loss of
Plaintiff’s security clearance job at DFAS.
17. When DFAS said that her job was being terminated, Plaintiff sought to transfer to another job
with the federal government, but was not successful. DFAS did not assist her with any job transfer,
despite her non-probationary employee status.
18. Plaintiff sought to explain the questionnaire non-disclosure to DFAS, to no avail.
19. There was no justifiable reason for Plaintiff’s security clearance to be withdrawn so far into her
employment.
20. There was no justifiable reason for Plaintiff’s security clearance to be withdrawn at all. Plaintiff
would still have received the security clearance if the trip to China had been listed. If any contact
with China would have kept Plaintiff from the job, then she would never have received the job, since
Plaintiff was from China and is of Chinese descent.
21. There was no justifiable reason for Plaintiff to not be allowed to transfer to a non-sensitive
position with the Department of Defense or a similar department.
22. There was no justifiable reason for Plaintiff to have been refused the opportunity to amend or
more adequately explain her questionnaire.

6

23. Does the title of security clearance has the power to fire anyone with out any reason?
24. Does the title of the security clearance has the power more than the U.S.A president? If the
President do a wrong thing people can correct the president. But the Supervisor has the power more
than the President, because someone afraid to correct him and the American’s law can not control
him, he do not care the American law and he can do anything that he want and he can fire any one
with out reason.
25. The plaintiff has 24 witness. Please see the evidence.
26. The Senate and congress all know the case and many DFAS Director and supervisors......ready
know about the case and they wrote evidence. Please see the evidence and the Senate sent the case
document to DFAS and say that they care about the case.

27. Because the supervisor do not has any reason to fire her so he ask the plaintiff to
quit her job. Plaintiff did not quit her job. Because she did not do anything wrong. Please see the
document.
28. Pleas see the MSPB document p2 (the document which Plaintiff give to that Court)
a. Disparate treatment the appellant may establish a prima facie case of prohibited discrimination on
the ground of disparate treatment by introducing evidence to show that: 1/. She is a member of a
protected group; 2/ She suffered an appeal able adverse employment action; 3/ The unfavorable action
gives rise to the inference of discrimination. McDonnell Douglas Corp. v. Green, 411 U.S 792,802
(1973). As to the third element, an employee may rely on any evidence giving rise to an inference
that the unfavorable treatment at issue was due to illegal discrimination

(Please see the document

which give to that court)
CONCLUSION
Plaintiff fills up the form on 2007 and after more than six years he said that you did not pass the
security clearance. Why she did not pass the security clearance? Which law does she did not followed?
Does the security clearance title have a power to fire anyone without reason?

7

Plaintiff is Permanent employee. Government guaranteed that. Plaintiff has NO crime and she did not
do any thing wrong. The person who uses the security clearance title to fire her without any reason
because she came from China. This is Discrimination. She never hurt him. Does he want his family
or mother, father, wife, sister, brother and children have the some thing happen to them? does he want
them suffering? And struggling? Plaintiff is suffering and struggling. She will write a book, let people
know what happened to her.
He wrote that he do not fire Plaintiff and ask her to quit her job. She did not do any thing
wrong. Why she quit her job? Plaintiff did not quit her job. There are 24 witnesses document to prove
that they care the case and she is hard work and she did not do any thing wrong and she loves America.
God watch us. Plaintiff did not do any thing wrong, she love America very much and the whole world
knows that America has equal opportunity and freedom is that true?
PRAYER FOR RELIEF
Plaintiff prays for judgment against Defendant for the value of lost employment, and a return to
employment, This is discrimination, she is fuffering and struggling.
The plaintiff love America and she believe that the United States is an equal and free country, and
everything is followed the law. Plaintiff believed that the United States would will give a reasonable
judgment on her case.
Respectfully Submitted,
Jiping Rizk
j ipingrizk@yahoo .com
419-913-0615

£

REASONS FOR GRANTING THE PETITIONER
THAT COURT DID NOT FOLLOWING THE AMERICA LAW
The court has the power to judge the Security Clearance cases, please check from the internet. If

the United States District Court can not decisions concerning security clearances are
generally beyond judicial scrutiny why the court held the case for 3 years? According
to the law, the deadlines to take action. Typically, we have twenty calendar days from when you
received the summons and complaint. But the court gave the defendant 2 months and the
Supervisor passed the two months dead line. The court said that Defendant did passed deadline
that was the plaintiff wrong, because the plaintiff only filled out a form sheet of Marshals Service
to DFAS and she did not fill out to an others. In fact the plaintiff was very clear remember that
the officers lady gave her 3 form and ask her to fill up and the lady bring the 3 form out of her
office and gave to the plaintiff, ask her to sign the signature. Please see the Civil Docket For Case,
on the date 06/11/18 shows that Plaintiff filled 3 Marshals Forms. If the plaintiff only filled out a
form to DFAS, DFAS was ready has the form and Defendant ready passed deadline! The court
give the defendant another two months again, defendant passed the second deadline again. And
the Court give the defendant the three times two months again. And defendant passed the three
times deadline again. The Court total give the defendant more than 6 month. Please see the Court
A GUIDE FOR Pro SE CIVIL LITIGANTS, p 12 the # 3. that Defendant Files Nothing : If the
defendant does not file anything within the deadline for filing a response he or she is in “default”
you may request the Clerk to enter a default into the Court record, After a default is entered by the
Clerk, you may file a motion for default judgment. Default judgment is a judgment awarding the
Plaintiff the relief sought in the complaint because the Defendant failed to respond to the complaint

9

complaint because the Defendant failed to respond to the complaint or otherwise make an
appearance in Court. The defendant gave no reason, and the court not only failed to act in
accordance with the law but also rejected the plaintiff with out any reason.
At the United States Court Of Appeals, Plaintiff do not has nay income, the court ask her to file up
the Affidavit or declaration in support of motion for leave to proceed in forma pauperis, but the
court still ask her to pay the fees. And the court do not have any reason to denied the case.
The U.S president and The Senate and congress and many DFAS Directors and supervisors co­
workers and Churches and the telvition of NBC and CBS they are know this case.
If your family has the same thing happening as the plaintiff, how your feeling. Plaintiff is
struggling and suffering.

lo

CONCLUSION

The petition for a writ of certiorari should be granted.

Respectfully submitted,

Date:

■^'0<P~Q

ll

